We performed our examination in accordance with Government Auditing Standards for
attestation engagements. Our scope and methodology is discussed in Exhibit D.

In response to the draft report, WJFF management agreed with our findings on the
Communication Act compliance and stated that it had initiated corrective actions to
address those issues. Further, WJFF requested CPB to refrain from penalizing the
station for not complying with these requirements. WJFF’s new Board of Trustees and
management are committed to bringing the station into full compliance with CPB
requirements. WJFF’s written response to the draft report is presented in Exhibit E.

The findings and recommendations contained in this report do not necessarily represent
CPB management’s final position on these matters. CPB management will make final
management decisions on the recommendations in this report in accordance with CPB’s
audit resolution procedures.

Based on WJFF’s response, we consider recommendations 1-4 resolved but open
pending CPB’s acceptance of WJFF’s corrective actions. Recommendation 5 remains
unresolved and open pending CPB’s final management decision.


                                    BACKGROUND

According to WJFF’s website the station is a locally owned, independent, non-
commercial, member supported, community radio broadcaster for the New York,
Catskill Mountains area and a public service provider carrying out a range of
educational and charitable activities. WJFF strives to make available to the community
a broad range of ideas and ideals, education, information, entertainment, analysis, and
inspiration useful to a full and enlightened life. It also aims to involve the community in
preserving and transmitting its own cultural heritage and artistic expressions in addition
to those of the global community, and to promote understanding among people of
diverse social and cultural backgrounds.

In August 2010, WJFF management informed the (CAB) that their term had expired and
station management would be soliciting new members. The station received numerous
protests from its volunteers and donors for dismissing the CAB. Subsequently, in
October 2011 OIG received a complaint from a listener alleging violations of the Act by
WJFF. The OIG referred the complaint to CPB’s radio department which counseled
WJFF in November of 2011 to comply with the Communications Act requirements per
CPB guidelines. Subsequently in 2013, CPB received additional complaints that
alleged continued violations of CAB requirements, as well as other requirements of the
Act. In response to these complaints, this examination was undertaken to determine
WJFF’s compliance with Act requirements, including CAB operations. In addition, we
reviewed claimed NFFS and the expenditure of CSG funds.




                                             2
        Community Service Grant

CSG award amounts are determined by the NFFS reported by a station on its Financial
Summary Report (FSR). The CSG calculation process starts with amounts
appropriated for the radio CSG pool adjusted by the base grant, distance, and local
grant amounts. The funds that remain are called the Incentive grant pool. The
Incentive Rate of Return (IRR) is calculated by dividing the Incentive grant pool by the
total amount of NFFS claimed by all radio stations in the system. The IRR is then
multiplied by the station’s reported NFFS to calculate the incentive award amount of the
station’s total CSG.

There is a two year lag between the reported NFFS and CPB’s calculation of the fiscal
year’s CSG award amount. CPB used the NFFS that WJFF claimed on its FY 2009
FSR to determine the amount of the FY 2011 CSG awarded to the station. WJFF’s
annual CSG award for FY 2011 totaled $90,837 and is itemized in Exhibit A. Each CSG
grant can be spent over a two-year period.

WJFF’s FY 2011 FSR reported total revenues of $373,697 per Exhibit B and claimed
total NFFS of $282,185 as presented in Exhibit C.


                                   RESULTS OF REVIEW

We examined WJFF’s management’s assertions of compliance with CPB’s CSG grant
agreement terms, Certification of Eligibility requirements, Act requirements, and NFFS
financial reporting guidelines for the one-year period ending December 31, 2011.
Management is responsible for compliance with these requirements. Our responsibility
is to express an opinion on management’s assertions about its compliance based on
our examination.

Our examination was conducted in accordance with the Government Auditing
Standards for attestation engagements and, accordingly, included examining, on a test
basis, evidence about WJFF’s compliance with those requirements and performing such
other procedures as we considered necessary in the circumstances. We believe that
our examination provides a reasonable basis for our opinion. Our examination does not
provide a legal determination on WJFF’s compliance with specified requirements.

Our examination disclosed WJFF claimed NFFS in compliance with CPB’s Guidelines.
Furthermore, we determined the following material noncompliance issues with CPB’s
Certification of Eligibility requirements and Communications Act requirements applicable
to the period ending December 31, 2011.1 More specifically WJFF did not:

    •   make quarterly on-air announcements explaining the station’s open meeting
        policy;
1
 Compliance with Certification of Eligibility and Communications Act requirements also included WJFF’s
procedures in effect at the time of our review during June 2013.

                                                   3
   •   have evidence that open meeting announcements for the CAB, Board of
       Trustees, or the committees of the Board of Trustees were made seven or more
       days prior to the meetings;
   •   maintain records of CAB members attendance at public meetings held prior to
       June 2013 to verify a quorum was present;
   •   always provide written statements explaining the reasons for closing meetings to
       the public; and
   •   develop documentation or written procedures to explain how the station complied
       with the open meeting, open financial records, CAB, EEO, or donor list and
       political activities requirements of the Act.

Similar concerns over the operations of the CAB were previously raised by CPB to the
former Station Manager in November 2011.

In our opinion, except for the material noncompliance issues described above, WJFF
has complied with the aforementioned requirements for the period ending December 31,
2011.


                    FINDINGS AND RECOMMENDATIONS

Compliance with the Communications Act

Our examination found that the WJFF was not in full compliance with the open meetings
and CAB requirements of the Act, as well as CPB Certification Requirements for CSG
recipients. Further, the WJFF had not established operating procedures to document
how the radio station complied with open meetings, open financial records, EEO
reporting, as well as donor list and political activities, as required by CPB’s CSG grant
agreement terms and the Act.

       Procedures for Announcing Public Meetings Need Improvement

Our examination of WJFF’s procedures for compliance with the open meeting
requirements found that the station did not: (1) have evidence that advance notice
requirements were met, (2) make quarterly announcements of its open meetings
policies, and (3) always document its reasons for closing public meetings.

Specifically, we found that WJFF did not have evidence that open meeting
announcements for the CAB, Board of Trustees, or the committees of the Board of
Trustees were made seven or more days prior to the meetings, as required. In addition,
the station did not make on-air announcements at least three consecutive days each
calendar quarter that explained the station’s open meeting policy and how the public
could obtain information on the dates, times, and locations of upcoming meetings.
While WJFF indicated that recently it has been documenting on-air announcements that
explained the station’s open meeting policy, these announcements were not
broadcasted for at least three consecutive days. Finally, WJFF did not always provide

                                            4
written statements explaining the reasons for closing a meeting to the public pursuant to
statutory exceptions, as required.

Section 396(k)(4) of the Act, 47 U.S.C. §396(k)(4) prohibits the distribution of federally
appropriated funds to the licensee of a public broadcasting station unless the governing
body of the organization, any committees of such governing body, or any advisory body
of any such organization holds open meetings preceded by reasonable notice to the
public.

The minimum compliance requirements for “reasonable notice” to the public as stated in
CPB’s explanation of the Act requires stations to “give reasonable notice to the public of
the fact, time and place of an open meeting at least one week (7 days) in advance of
the scheduled date . . . .” CPB’s explanation of the Act requires stations to provide
three types of notice.

       1. Notice placed in the "Legal Notices" or the radio and television
          schedules section of a local newspaper in general circulation in the
          station's coverage area; or, notice is available through a recorded
          announcement that is accessible on the station's phone system; or,
          notice is available through an announcement that is accessible on
          the station's web page.

       2. Notice communicated by letter, e-mail, fax, phone, or in person to
          any individuals who have specifically requested that they be notified.

       3. On-air announcements on at least three consecutive days once
          during each calendar quarter that explain the station's open meeting
          policy and provides information about how the public can obtain
          information regarding specific dates, times, and locations.

The statute also provides exceptions to the open meeting requirement. Closed
sessions can be conducted to consider matters relating to “…individual employees,
proprietary information, litigation, and other matters requiring the confidential advice of
counsel, commercial or financial information obtained from a person on a privileged or
confidential basis, or the purchase of property or services whenever the premature
exposure of such purchase would compromise the business interests of any such
organization.” If a session is closed to the public pursuant to these statutory exceptions,
a written statement containing an explanation of the reasons for closing the meeting
must be made publicly available within a reasonable period of time.

       Strengthening Community Advisory Board Procedures

Our examination of compliance with CAB requirements found that the WJFF had not
maintained records of CAB members attendance at public meetings (e.g., CAB meeting
minutes). However, WJFF did maintain some agendas for CAB meetings. The only
CAB meeting documented by minutes was held in June 2013 with only four of the eight

                                            5
members present. As a result, even this session did not meet CPB’s definition of a
“meeting” because a quorum was not present. Without records of attendance or
meeting minutes recording the CAB’s deliberations and that a quorum was present we
could not independently substantiate that the CAB was operating in accordance with
CPB guidelines.

CPB’s minimum compliance requirements addressing meetings of the CAB require stations
to undertake good-faith efforts to assure that:

      a. its advisory board meets at regular intervals;
      b. the members of the board regularly attend the meetings of the advisory board.

Further, CPB’s guidance for open meetings defines a meeting, which requires: 1) a
quorum must be in attendance; 2) deliberations must take place; and 3) deliberation
must result in joint disposition of the business of the committee related to public
broadcasting.

The CAB is intended to provide the public the opportunity to be heard on station
programming, community service, and the impact that the station’s major policy
decisions have on the community. All community stations are encouraged to establish
whatever mechanisms will be most effective, under local circumstances, to accomplish
this congressionally established requirement.

      Developing Written Procedures

Our examination found that the WJFF had not developed documentation or written
procedures that explain how it complied with the open meeting, open financial records,
CAB, EEO, or the donor list and political activities requirements of the Act.

CPB’s Certification Requirements for Station Grant Recipients provides guidance to
establish written procedures addressing, open meetings, open financial records, CAB,
EEO, and donor list and political activities requirements. This documentation should
explain how the station complies with these requirements and the public’s access to this
information (e.g., the methods used to give reasonable notice to the public for meetings;
the types of financial and EEO information to be made available to the public; and donor
list and political activity restriction requirements). This documentation shall be kept by
each station at a reasonable location and made available to CPB, upon request, to
determine the fact and extent of compliance with the Act.

These procedures not only provide operating guidance for station officials, but also
provide the public with information about how the station complied with these grant
requirements.

                                     *    *       *   *   *




                                              6
In November of 2011, the previous station manager was advised by CPB that the
station needed to have an operating CAB in accordance with CPB Certification
Requirements as posted on CPB’s website. In subsequent grant years, WJFF officials
continued to certify its compliance with the Act in applying for new CSG grants, but our
examination found that in fact, WJFF was not conducting open meetings, was not
complying with CAB requirements as required by the Act, and had not established
written policies explaining the station’s procedures for complying with the Act. WJFF
officials did not provide the public the transparency envisioned by CPB guidelines, and
this non-compliance could have disqualified WJFF from receiving the CSG.

In April 2013 the previous station manager and eight of the nine members of the Board
of Trustees resigned. The assistant station manager was appointed interim manager
and in June 2013 eleven new Board members were elected. Our discussions with the
interim station manager found that he was not fully aware of all of the Act’s
requirements, but he agreed to establish procedures and began implementing
corrective actions while we were on site.

      Recommendations

We recommend that CPB management require WJFF management to fully comply with
all requirements of the Communications Act and provide CPB documentation of its
compliance with the following requirements:

   1) Make on-air announcements for at least three consecutive days once each
      calendar quarter that explain the station’s open meeting policy and provide
      information on how the public can obtain information regarding specific dates,
      times, and locations of public meetings. Have the station provide copies of
      announcements aired, as well as the date and time of each airing over the next
      four calendar quarters.
   2) Announce all open meetings for seven days prior to the meeting and provide
      documentation of these announcements to CPB over the next four quarters.
   3) Establish written implementing policies that explain how the station will comply
      with open meeting, open financial records, CAB, EEO as well as, donor list and
      political activities requirements.
   4) Ensure that when a meeting is closed in accordance with the exceptions
      recognized by the Act, WJFF makes a written statement containing the reasons
      for closing the meeting available to the public within a reasonable time after the
      closed meeting.
   5) Penalize WJFF for not taking appropriate corrective actions to comply with all Act
      requirements after being instructed by CPB to do so in November of 2011.

      Management Response

WJFF’s response agreed with our findings and recommendations 1-4 related to
compliance with Communication Act requirements. The station’s response explained
the corrective actions it has taken. It is now making quarterly on-air announcements on

                                            7
at least three consecutive days explaining its open meeting policy and how to obtain
information on its next public meeting. Additionally, WJFF provided its written policies
addressing the five Communications Act requirements for open meetings, open financial
records, CAB, EEO and donor lists. WJFF’s response also respectfully requested that
recommendation 5 to penalize the station for not fully complying with the Act not be
accepted because the new Board of Trustees and management are fully committed to
bringing the station into compliance with CPB’s requirements.

      OIG Review and Comments

Based on WJFF’s response, we consider recommendations 1-4 resolved but open
pending CPB’s acceptance of WJFF’s corrective actions. Recommendation 5 remains
unresolved and open pending CPB’s final management decision.




                                           8
                                                                    EXHIBIT A




                 CPB Payments to WJFF-FM
             October 1, 2010 – September 30, 2011

  Date                          Grants:                Amounts

11/26/2010   Community Service Grant – Restricted          $9,154
 6/2/2011    Community Service Grant – Restricted          $9,153
                               Sub-Total                  $18,307


11/26/2010   Community Service Grant – Unrestricted:      $25,784
 6/2/2011    Community Service Grant – Unrestricted:      $25,784
7/29/2011    RLAIF Bonus                                  $20,962
                               Sub-Total                  $72,530


                            Total Payments                $90,837




                                      9
                                                                                      EXHIBIT B




                                Financial Summary Report
                        For the Period Ending December 31, 2011

Line                                       Description                                FY 2011


       Part 1, Revenue and Support:
 2     Corporation for Public Broadcasting (CPB)                                          $91,512

       State and local boards and departments of education or other state and local
 4     government or agency sources                                                         2,962
 6     Foundations and nonprofit associations                                              23,626
 7     Business and Industry                                                               41,201
 8     Memberships and subscriptions (net of write-offs)                                  170,968
 9     Net revenue from auctions and other special fundraising activities                  33,282
 10    Passive income (interest, dividends, royalties, etc.)                                9,742
 11    Other (Miscellaneous)                                                                 404
 12    Total Direct Revenue                                                               373,697


       Less revenue that does not qualify as NFFS:
 13    Federal, CPB and public broadcasting revenues                                       91,512
 15    Total Direct Nonfederal Financial Support                                          282,185
 17    Total Revenue                                                                      373,697


       Part 2, Expenses
 18    Programming and Production                                                          48,230
 19    Broadcasting and engineering                                                        30,122
 20    Program Information and Promotion                                                    6,760

 21    Management and General                                                             205,486
 22    Fund Raising and Membership Development                                              7,086
 24    Depreciation and Amortization                                                       26,842
 25    Total Operating Expenses                                                          $324,526




                                                     10
                                                                EXHIBIT C




           Summary of Non-Federal Financial Support
            For the Period Ending December 31, 2011
Certified by Head of Grantee and Independent Accountant’s Report

Line                          Description           FY 2011

       Summary of Non-Federal Financial Support:
 1     Direct Revenue (Part I, line 15)                  $282,185
 2     In-Kind Contributions (Part I, Line 16a)                0
 3     Indirect Administrative (Part I, Line 16c)              0
 4     Total Non-Federal Financial Support               $282,185




                                          11
                                                                            EXHIBIT D




                            Scope and Methodology
We performed an examination to determine WJFF’S adherence to the requirements of
the CPB Financial Reporting Guidelines, provisions of the Communications Act, and
CPB grant provisions and certification requirements. The scope of the examination
included reviews and tests of the data reported by the station on its FSR and audited
financial statements for the year ending December 31, 2011.

The scope of the audit included tests of the data reported on the FSRs for the fiscal
year ending December 31, 2011. We tested the allowability of the $282,185 of NFFS
claimed on WJFF’s FSR by performing financial reconciliations and comparisons to
underlying accounting records (general ledger) and the audited financial statements.
We reviewed the allowability of expenses that were charged to the CPB grants. We
tested and analyzed the CPB Transaction Report for FY 2011 to determine if the
category of expenses charged to the grants were allowable. We also reviewed $27,853
or 29 percent of the $95,424 of CSG funds WJFF expended during FY 2011, to
determine if the expenditures were allowable in accordance with the terms of the grant.
We reviewed supporting documentation for underwriting agreements, grant agreements,
vendor invoices, and other documentation supporting revenues and expenditures
tested.

We also reviewed records and documents supporting the station’s compliance with the
Act requirements to: provide advance notice of public meetings, make financial and
EEO information available to the public, and provide documents supporting compliance
with donor lists and political activities prohibitions. Our procedures included
interviewing station officials and its independent public accountant.

We gained an understanding of internal controls over the preparation of FSRs, cash
receipts, and cash disbursements. We also gained an understanding of WJFF’s
policies and procedures for compliance with certification of eligibility requirements,
Communications Act, and CPB grant agreement terms for allowable costs. We used this
information to assess risks and plan the nature and extent of our testing to conclude on
our objectives. We also tested the effectiveness of controls over payment
authorizations.

Our fieldwork was performed at WJFF, the week of June 17 – June 19, 2013. Our
examination was performed in accordance with the Government Auditing Standards,
July 2007 Revision, for attestation examinations.




                                          12
